<html>
<title> - HEARING ON THE NOMINATIONS OF COLIN FULTON TO BE GENERAL COUNSEL OF THE EPA AND PAUL ANASTAS TO BE ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH AND DEVELOPMENT, OF THE EPA</title>
<body><pre>[Senate Hearing 111-1196]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1196

                  HEARING ON THE NOMINATIONS OF COLIN
                  FULTON TO BE GENERAL COUNSEL OF THE
EPA AND PAUL ANASTAS TO BE ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH 
                      AND DEVELOPMENT, OF THE EPA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-590 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 24, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts, prepared statement..............................     4
Kerry, Hon. John F., U.S. Senator from the State of 
  Massachusetts, prepared statement..............................     5
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut, prepared statement................................     6
Mikulski, Hon. Barbara A., U.S. Senator from the State of 
  Maryland, prepared statement...................................     7

                               WITNESSES

Fulton, Colin Scott, nominated to be General Counsel, U.S. 
  Environmental Protection Agency................................     9
    Prepared statement...........................................    11
    Responses to additional questions from Senator Inhofe........    14
Anastas, Paul, nominated to be Assistant Administrator for the 
  Office of Research and Development, U.S. Environmental 
  Protection Agency..............................................    22
    Prepared statement...........................................    24
    Responses to additional questions from:
        Senator Boxer............................................    27
        Senator Lautenberg.......................................    28
        Senator Inhofe...........................................    29

 
HEARING ON THE NOMINATIONS OF COLIN FULTON TO BE GENERAL COUNSEL OF THE 
EPA AND PAUL ANASTAS TO BE ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH 
                      AND DEVELOPMENT, OF THE EPA

                              ----------                              


                        WEDNESDAY, JUNE 24, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10:45 a.m. 
in room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full Committee) presiding.
    Present: Senators Boxer and Inhofe.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    I hear that Colin Fulton prefers to be addressed as Scott. 
Is that correct?
    Mr. Fulton. That is correct.
    Senator Boxer. All right. I will do it exactly right. I 
understand that.
    So I would like to begin today's Environment and Public 
Works Committee hearing by welcoming two individuals who are 
nominated to head key offices at the U.S. EPA. The way we are 
going to handle this, Senator Inhofe and I are going to make 
very brief opening statements, and then we are going to get 
right to you both. If we have any questions, we will ask. If 
others have questions, and we have a vote on the floor 
momentarily, so this could be a very enjoyable and quick time 
for you.
    We do hope you will, however, take a minute to introduce 
your families who are here.
    Scott Fulton is President Obama's nominee to head the 
Office of General Counsel. He comes to us with a long record of 
service at the Department of Justice U.S. Attorney's Office and 
most recently 20 years at the U.S. EPA. The Office of General 
Counsel is the legal conscience of EPA, providing indispensable 
legal advice to the Administrator and EPA staff. They work with 
the Department of Justice to represent EPA in court, including 
before the Supreme Court.
    The Office of General Counsel plays a vital role in making 
sure EPA is on solid legal ground as the agency moves forward 
to address serous public health and environmental challenges.
    We have noted that over the past years, EPA has lost many 
cases in the courts, which I believe has delayed our efforts to 
clean up our air and water, putting the health of our 
communities at risk.
    If confirmed, Mr. Fulton's decades of experience will be an 
asset as he works to follow the law and ensure that EPA follows 
the law and that they protect the public health and make 
decisions that will stand up in the highest court in the land.
    Paul Anastas is the President's nominee to be Assistant 
Administrator of EPA's Office of Research and Development. We 
all agree on this Committee that unbiased science is the key. 
The Office of Research and Development plays a pivotal role in 
ensuring the agency's decisions are free from conflicts of 
interest, they're transparent, and held to the highest science.
    Dr. Anastas has an extensive record of achievement at EPA 
and academia and the private sector. He has been called the 
Father of Green Chemistry for his groundbreaking work to reduce 
waste and negative environmental impacts by changing the way 
chemical products are designed, manufactured and used.
    Most recently, he has been Director of the Center for Green 
Chemistry and Green Engineering at Yale.
    I believe both of today's nominees are eminently qualified 
to provide crucial leadership and expertise at EPA as EPA 
develops and implements policies that will protect our public 
health, and I believe in doing so will build a stronger 
economy.
    So I look forward to hearing from them today.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, and I will abbreviate my 
statement.
    First of all, we do want to talk about, and I have a couple 
of questions on transparency. Certainly, Administrator Jackson 
has talked about this and I think that we need to maximize also 
public participation.
    I have tried to get information to reanalyze the economic 
impacts of the Waxman-Markey. I still am waiting for that to 
come back.
    And I hope that you folks, both of you coming from--it 
seems like everyone is coming from--I don't know what's wrong 
with the West Coast, do you? They all come from the East Coast, 
and not middle America. But I would like to have you keep in 
mind that we all want to be considered and our viewpoints are 
never always the same in different parts of the Country.
    I have specific questions I want to ask, and rather than to 
take time now to do that, to finish my statement, I ask that it 
be considered in the record in its entirety, and then as soon 
as we get to questions, I would like to do that.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Good morning. We are here today to consider two nominations 
for the Environmental Protection Agency: Colin Scott Fulton to 
be General Counsel and Paul Anastas to be Assistant 
Administrator for the Office of Research and Development. I 
want to welcome both of you and your families here today.
    I am looking forward to working with you. There are many 
challenges ahead for EPA, and I am confident that both of you 
possess the knowledge and experience to address them with 
balance, competence, and, just as important, transparency.
    On that last point, transparency, I would hope that each of 
you will treat requests for information from the minority of 
this committee the same as those from the majority. And I hope 
that you will fulfill Administrator Jackson's commitment to 
maximize public participation and input on the decisions you 
make.
    Thus far, I think the Agency has more work to do to meet 
Administrator Jackson's commitment. I have sent several 
requests for information, including, most recently, a request 
that EPA re-analyze the economic impacts of Waxman-Markey. I 
sit here today wondering whether EPA will provide me and my 
staff with this and other information. This state of affairs 
does not conform to the stated pledges of Administrator Jackson 
and other nominees who have appeared before this committee.
    In addition to transparency, I hope that you will consider 
all viewpoints so that your decisionmaking reflects a truly 
national perspective, accounting for regional differences. One 
thing that concerns me is that, though the Obama EPA has highly 
competent and experienced nominees, they tend to hail from one 
part of the country. I do not see much, if any, regional 
diversity at the Obama EPA. I have said this at prior 
nominations hearings and I am growing more concerned. Not only 
are most EPA appointees from the East Coast, most, if not all, 
are from urban centers. I am deeply concerned that we have an 
EPA team with little direct knowledge of the middle of the 
country. What is good for the East Coast is not necessarily 
good for the rest of the United States.
    EPA is grappling with policy decisions that could have 
serious impacts on rural America--though I don't believe rural 
America has a voice in the current Obama EPA. I hope the 
nominees will assure me today that they will reach out to rural 
communities for their perspective on the important issues 
facing the agency. What you do at EPA is important to 
Oklahomans, Ohioans, Tennesseans, Minnesotans, and to other 
States and regions of the country. To be successful in 
formulating policy, to make it work for everyone, you must 
factor these viewpoints into your decisionmaking.
    Finally, I want to repeat a simple principle that I have 
been advocating for my entire political career: we need to 
balance environmental protection with concern for how decisions 
affect the economy--and the people who run this great machine 
called America. Achieving this balance, as well as broadening 
the agency's geographical focus in decisionmaking, will be 
essential to achieving the mission of EPA.

    Senator Boxer. I ask unanimous consent that the statements 
in support of the nomination of Dr. Anastas from Senators 
Kennedy, Kerry and Lieberman and from Senator Mikulski on 
behalf of Mr. Fulton be entered into the record.
    Hearing no objection, it is so ordered.
    [The referenced documents follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. So Scott, why don't you begin?

   STATEMENT OF COLIN SCOTT FULTON, NOMINATED TO BE GENERAL 
         COUNSEL, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Fulton. Thank you, Madam Chairman.
    I just want to begin by thanking both of you for holding 
this hearing today. If I might also start by introducing some 
important people in my life who are here with me this morning: 
my daughters Keri and Krista over here, my brother Kent Fulton 
who is an Administrative Law Judge in Missouri, and my father, 
Robert Fulton who is retired living in Missouri also, which is, 
by the way where my family roots are. So we do have that 
Midwestern connection here.
    It is a special treat for me to have my dad here in 
particular as he himself once held a presidentially appointed, 
Senate-confirmed position, having served as the Administrator 
of Social and Rehabilitation Services in the 1970s.
    Without a doubt, my father's lifelong commitment to public 
service and the integrity and resolve with which he approached 
his work served as a model and powerful instruction for me in 
my own life and career.
    I am honored to have been nominated by President Obama to 
serve as EPA's General Counsel, and feel privileged to be 
speaking before you today. I am also deeply thankful to 
Administrator Lisa Jackson for inviting me to be part of her 
team at EPA during this time of great challenge, but also great 
promise.
    Although I have worn a number of different hats along the 
way, I have spent my career as an attorney and public servant 
in two principal institutions: the Department of Justice and 
EPA, with environmental law as my focal point in both of those 
settings.
    The bulk of my time in these organizations has been 
invested in leading and managing law offices and working 
through complex legal issues.
    I have been blessed with a wonderful career that has, among 
other things, offered me the opportunity to both witness and 
participate in an evolution of environmental law that spans 
nearly three decades and five Administrations.
    My hope is that, if confirmed, the perspectives and 
understandings that flow from this experience will be of value 
to the Obama administration and my Country.
    Having served as EPA's Principal Deputy General Counsel 
from 1995 to 1999, including a stint as Acting General Counsel, 
I am well acquainted with the role for which I have been 
nominated, and my experience overall has left me familiar with 
the demands inherent in positions at this level of the Federal 
Government and the imperative of constructive engagement with 
the Congress, within the executive branch and with stakeholders 
in the general public.
    I have been substantially involved in environmental 
litigation along the way, at various points enforcing 
environmental requirements, defending challenges to 
administrative decisions, and serving as a judge in 
administrative environmental cases. As a result, I feel 
grounded in the judicial process for resolution of 
environmental disputes and bear deep respect for the vitally 
important role of the judiciary as the guarantor of the rule of 
law in the environmental arena.
    If confirmed, I will do my utmost to ensure the faithful 
implementation of the laws of the United States as specified by 
the Constitution, expressed by the Congress, and interpreted by 
the courts. The bedrock role of the General Counsel, as I see 
it, is to provide legal advice and direction grounded in the 
rule of law and working closely with our colleagues at the 
Department of Justice to defend the agency's actions in court.
    In this regard, if confirmed, I am committed to maximizing 
through the counsel that I offer, the defensibility of the 
agency's regulatory decisions, and I look forward to working 
with the dedicated career lawyers in the Office of General 
Counsel to this end.
    The rule of law would be the fundamental principle that 
would guide my actions, both as lawyer and manager, and inform 
my counsel to the Administrator and the agency.
    I would not have pursued the career path that I have chosen 
without a deep and abiding commitment to the integrity and 
efficacy of this Nation's environmental protection program. 
This is the work that I went to the Justice Department to do at 
the beginning of my career, and the pursuit that has carried me 
in the years since. I am excited by the prospect of 
participating in the Obama administration's effort to chart a 
course that secures public health and environmental quality for 
this generation and those generations yet to come.
    If confirmed, I will work tirelessly to provide legal 
counsel to the Administrator and other members of the 
Administrator's team in furtherance of this goal.
    Thank you for your consideration.
    [The prepared statement of Mr. Fulton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much, Mr. Fulton.
    And of course, now our final witness, Paul Anastas.
    Sir, proceed.

     STATEMENT OF PAUL ANASTAS, NOMINATED TO BE ASSISTANT 
ADMINISTRATOR FOR THE OFFICE OF RESEARCH AND DEVELOPMENT, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Anastas. Thank you, Chairman Boxer. Thank you, Ranking 
Member.
    It is a pleasure to be with you here today. I would like to 
introduce to you my wife, Julie Zimmerman, and our 22-month-old 
daughter Kennedy, one of my most vocal supporters.
    [Laughter.]
    Mr. Anastas. I am also lucky to have my extended family 
with me here today: Sam, Shelley and Nancy Zimmerman, and 
Nancy's two children, Ally and Harrison Brown.
    Senator Boxer. Welcome, everybody.
    Mr. Anastas. I am honored to be nominated to serve as 
Assistant Administrator in the Office of Research and 
Development at the U.S. EPA. When I was a boy growing up in the 
small town of Quincy, Massachusetts, I grew up overlooking an 
idyllic wetland. When that wetland was replaced by an office 
park, I was nearly inconsolable. My father, Nick Anastas, who 
was a biology teacher, took me aside to explain to me that it 
is not enough to merely care about the environment, but you 
have to learn about the environment and understand it deeply. 
Like he did so many times in my life, he put me on the right 
track to being an environmentalist and a scientist.
    So I became a synthetic organic chemist, which means I make 
molecules and study chemicals. But long before I became a 
faculty member at Yale, where I am today, I was a GS-11 chemist 
at the U.S. EPA. Nearly 20 years ago today, I began my first 
day on the job. I was fortunate enough to have the best mentor 
that a 27-year-old could hope for in the late Dr. Roger 
Garrett. He taught me some of the most important lessons of my 
career, and I built those into my career as bedrock principles.
    The first is integrity--integrity in all things, and 
especially science. I believe that we can all agree it is 
essential to the very foundations of our efforts in protecting 
human health and the environment, to be based on science that 
is sound, unbiased, uncompromised, and apolitical. Integrity 
has been at the center of what I have dedicated my career to 
and it will be a value that I will bring to the Office of 
Research and Development if confirmed.
    Second, innovation. The challenges we face of clean air, 
clean water, and trying to ensure sustainable civilization are 
serious and daunting. If we are to meet these challenges, it 
will require that we pursue approaches that bring about 
economic, as well as environmental prosperity simultaneously, 
and it will require the best of the innovative spirit of this 
Nation.
    I believe the excellent scientists of the Office of 
Research and Development have that innovative spirit that will 
help them approach new challenges in new ways, and be even more 
creative in developing our environmental solutions.
    Third, interdisciplinarity. While our core traditional 
disciplines remain the backbone of our scientific endeavors, 
the opportunities we face in doing things more creatively and 
more effectively require an interdisciplinary approach. By 
working across disciplinary and organizational boundaries, we 
can expect a renaissance in environmental protection.
    Finally, inspiration. The story goes that an old man was 
walking down the street and passed by two workers on the side 
of the road cutting stones. The first stonecutter was cursing 
and grousing, and the old man asked what he was doing. And he 
grumbled, I am chipping away at these stones with a dull old 
chisel and I am hitting my thumb with a hammer.
    The old man then asked the second worker what he was doing 
while he was singing and whistling to himself, and he said, I 
am building a cathedral.
    To be inspired by the work that you do is not merely a 
luxury. It is often essential to the effectiveness of getting 
that work done. I can think of few more inspiring missions than 
that of the Office of Research and Development at the U.S. EPA.
    With these values as pillars, if confirmed, I will work to 
provide Administrator Jackson with the highest quality 
scientific information as the basis of her policy decisions. I 
will make openness and transparency the hallmark of the work we 
do at ORD. I will seek out new approaches, perspectives and 
methods to advance our knowledge and understanding of 
environmental and health problems, as well as to generate 
solutions to these problems.
    In closing, I just want to say I have a near-perfect life 
in the little town of Guilford, Connecticut right now. I am 
fortunate to have a nice home, a wonderful family, dedicated 
students and wonderful colleagues at Yale. Yet I am so eager to 
come here to Washington to begin my duties at EPA if confirmed. 
The reason is simple. It is because I view this work of using 
science to protect human health and the environment as an 
extension of my love for my daughter. It is also because I view 
it as an extension of my dedication to my students and letting 
them know that their work is as challenging as it is important.
    I thank the Committee for the chance to be with you today, 
and I would be happy to answer any questions.
    [The prepared statement of Mr. Anastas follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Well, I want to thank you both for very 
inspiring statements, and we are very fortunate. I think 
Senator Inhofe, I speak for him as well, that both of you 
stepped up to the call of service to Country.
    I am going to ask you three very technical questions that 
we have to ask everybody. It just requires a yes or no. I will 
look to each of you. The record will reflect that. I will put 
off my substantive questions until after Senator Inhofe goes 
because he has a pressing matter on the floor of the Senate.
    So I will ask first, do you agree, if confirmed by the 
Senate to appear before this Committee or designated Members of 
this Committee and other appropriate committees of the 
Congress, and I am talking about on both sides of the aisle, 
Republican and Democratic, and provide information, subject to 
appropriate and necessary security protection, with respect to 
your responsibilities at the Environmental Protection Agency?
    Mr. Fulton.
    Mr. Fulton. Yes.
    Senator Boxer. Mr. Anastas.
    Mr. Anastas. I do.
    Senator Boxer. Second, do you agree to ensure that 
testimony, briefings, documents and electronic and other forms 
of communications are provided to this Committee, both sides of 
the aisle and its staff and other appropriate committees, in a 
timely fashion?
    Mr. Fulton.
    Mr. Fulton. Yes.
    Senator Boxer. Mr. Anastas.
    Mr. Anastas. Yes.
    Senator Boxer. And three, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Mr. Fulton.
    Mr. Fulton. No.
    Senator Boxer. And Mr. Anastas.
    Mr. Anastas. No.
    Senator Boxer. OK.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    And I am going to make this real quick.
    First of all, let me say that I appreciate both of you 
taking the time to come to my office and I will be supporting 
your nomination. In fact, I will go one step further, Madam 
Chairman. I know we have a three legislative day waiting period 
that I might be in a position to consent to so that we could 
get it done before we go into the recess.
    However, it would be conditioned upon getting back some 
documents that I will ask you about, and also the document that 
has a deadline of this coming Friday that comes from 
Administrator Jackson. I will make sure that is in the record 
so we will know what it is.
    What I would want to, as I mentioned in the opening 
statement, which I was going to mention, but we submitted it 
for the record, is the transparency thing. The EPA's 
increasingly stringent arsenic regulations on rural water 
systems are a real challenge, as I told you when you were in my 
office. You know, I come from the background of being the Mayor 
of a major city and unfunded mandates are the worst enemy we 
have. So we want to be sure that we get the information, that 
we know that all things are considered as you develop your new 
regulations. The IRIS, I think the evaluation needs to be 
looked at.
    And I have some specific things which I will put in the 
record that I will be requesting from you, Mr. Anastas, and 
also from Mr. Fulton.
    But given the consequences of any changes in the assessment 
of arsenic, if you are confirmed will you commit to reviewing 
the IRIS update for inorganic arsenic? That would be for you, 
Mr. Anastas.
    Mr. Anastas. Yes, I will review the inorganic arsenic 
update and will be happy to work with you and this Committee.
    Senator Inhofe. All right. And it has been 4 years since 
the Science Advisory Board. Consequently, a lot of that is 
older information, but do you commit to an external peer review 
and public comment of the document prior to its being 
finalized?
    Mr. Anastas. This is an issue that I will be happy to, if 
confirmed, work with the staff of the EPA and ORD to understand 
where it is in the process. I will be happy to work with you 
and this Committee in finding out what stage it is at in 
getting peer review.
    Senator Inhofe. And all the information. Yes, you know, I 
mentioned to both of you, I want your assurances at this 
meeting that you will treat the minority the same as you treat 
the majority in responding in a timely fashion to the requests 
that we had. OK?
    Mr. Anastas. Yes.
    Mr. Fulton. Yes.
    Senator Inhofe. And finally, let's see, will you commit to 
releasing to the public the models that the EPA uses for 
decisionmaking, including all the models in the model 
validation data relied upon by EPA for the proposed 
endangerment finding?
    Mr. Anastas. I take very seriously the memo that was 
released by the President and Administrator Jackson's directive 
on scientific integrity. It stresses openness and transparency 
and wherever possible materials should be released and made 
publicly available.
    Senator Inhofe. Well, or available to us if we request it. 
We are talking about models. Do you think there is some reason 
that we should not have access to any of these models?
    Mr. Anastas. Not being a member of the agency, I know of no 
reason, but I will be happy to look into it, if confirmed.
    Senator Inhofe. OK.
    Mr. Fulton, in our office we talked about giving some 
protection to some of the small--and I am going back now to the 
issue that we were discussing--to some of the small businesses, 
the schools and all of that. And I think you agreed and you 
quoted the President as saying those aren't the ones that we 
are going to be going after. Are you committed now to try to 
put something together where we will have some assurance that 
we are protecting small businesses and entities from some of 
the very difficult requirements that would be imposed upon 
them?
    Mr. Fulton. Yes, Senator. This would be certainly a point 
of focus, as we discussed in your office, in relation to 
forward movement in dealing with the greenhouse gas challenge. 
I have observed, as has the Administrator and the President, 
that the Administration's focus would be on significant 
contributors of greenhouse gases, and that whatever is brought 
forward from a regulatory standpoint in the event that 
legislation does not fully speak to this issue, would be 
centered in that manner and would be common sense based and 
focused on the most significant actors.
    Senator Inhofe. All right.
    And then last, I would only mention that back when we were 
a majority, we made quite an issue and some real progress in 
grants management. And I think it has slipped a little bit, and 
I expressed to you in our office the significance that I put on 
this, and I would hope that you would commit to going back to 
how we were handling that and the successes that we have had in 
the past.
    Mr. Fulton. Yes, Senator, the agency is very much committed 
to that. We appreciate you keeping this as a matter of focus. 
It took many years to move grants management out of the 
material weakness category and we are anxious to maintain its 
steady status, something that is a positive part of the 
agency's operations.
    Senator Inhofe. Very good.
    Madam Chairman, I thank you. I am going to give you the 
copies. Really about the only thing we need is just an 
elaboration on the questions that I have asked you, and I will 
submit that in writing, along with resubmitting the letter that 
goes to Administrator Jackson, and hopefully we can get it back 
soon enough that we can dispose of this process before we go 
into recess. I think it would work to everyone's benefit.
    Senator Boxer. OK. We have 7 minutes left on the vote, but 
they add another few minutes on. So I am going to ask just a 
couple of brief questions.
    Mr. Fulton, an '05 Government Accountability report stated, 
``EPA has limited ability to publicly share the information it 
receives from chemical companies under the Toxic Substances 
Control Act.'' This Federal law regulates the use of toxic 
chemicals. The GAO said the use of confidential business 
information claims was the reason for this lack of disclosure.
    If confirmed, would you please review EPA's confidential 
business information rules and recommend ways to increase 
information disclosure to the public?
    Mr. Fulton. Yes, Madam Chairman. I can commit to doing that 
and I think that would be very much in alignment with the 
Administrator's commitment to transparency.
    Senator Boxer. And Dr. Anastas, the Committee has received 
testimony on conflicts of interest that impact the quality of 
information agencies use. For example, in May '07, Professor 
David Michaels testified before the Committee. He authored a 
book titled Doubt Is Their Product, which describes conflict of 
interest impacting the quality of information used by Federal 
agencies.
    If confirmed, would you please review your office's 
conflict of interest guidelines, including for advisory panels, 
and recommend ways to improve safeguards against people with 
conflicts being named as decisionmakers?
    Mr. Anastas. I think you have identified a very important 
issue and the answer is yes, I will commit to reviewing that.
    Senator Boxer. Thank you.
    Mr. Fulton, EPA Inspector General reports in '04 and '06 
cited a need for the EPA to more effectively implement the 
Executive Order on Environmental Justice. The '04 report said 
concerns raised by the General Counsel were a reason for EPA 
not adequately implementing the order.
    If confirmed, will you please review EPA's agency-wide 
implementation of the Executive Order on Environmental Justice 
and help to recommend ways that EPA can better implement this 
order?
    Mr. Fulton. Yes, Madam Chairman. If confirmed, I will do 
so.
    Senator Boxer. Thank you.
    Mr. Fulton, this Committee has received testimony on 
conflicts of interest that impact the quality of information 
that agencies use. It is the same question I asked Mr. Anastas.
    If confirmed, will you review EPA's conflict of interest 
guidelines, including for advisory panels, and recommend ways 
to improve safeguard against people with conflicts serving on 
these boards?
    Mr. Fulton. Yes, Madam Chairman.
    Senator Boxer. OK.
    And let's see, we asked that one.
    Dr. Anastas, this Committee has worked to ensure that EPA 
uses the best available science in its integrated risk 
information system, which is used to set exposure levels to 
toxic chemicals. EPA recently changed the IRIS process to help 
restore its scientific integrity, but agencies with potential 
conflicts of interest still have opportunities to impact EPA's 
work.
    If confirmed, will you produce an immediate report on the 
role of Federal agencies and the White House in reviewing IRIS 
assessments and let us know how we can better handle these 
problems?
    Mr. Anastas. The issue of IRIS is one of the most important 
issues that EPA's Office of Research and Development faces. 
Yes, I can commit to reviewing that. If confirmed, I would hope 
to work with the Committee to assure that the timeframe and the 
nature of the report that you have requested are appropriate.
    Senator Boxer. All right.
    I have just three other questions I am going to submit for 
the record. Would you be sure to get these back to us by the 
end of today? They are not complex, and Arvin, I think you can 
handle that.
    OK. That would be excellent because we are trying to work 
with Senator Inhofe to get you both on the job sooner rather 
than later, because we have that week break. So we will work 
with the minority in trying to get whatever papers they have 
requested. Hopefully, we can do it. If we can, we will. If we 
can't, we will do this confirmation as soon as possible.
    I want to again say to the two of you, you really both 
presented such heartwarming statements to the Committee and we 
are very grateful.
    And we stand adjourned.
    [Whereupon, at 11:15 a.m. the Committee was adjourned.]

                                 [all]
</pre></body></html>
